    Office of Inspector General
    Report of Review




 ASSESSMENT OF CONTROLS OVER
EMERGENCY REMOVAL ACTIONS AT
    METHYL PARATHION SITES


     E1SFB7-06-0020-7400069
       September 23, 1997
Inspector General Division
  Conducting the Audit:      Central Audit Division
                             Dallas, Texas

Regions Covered:             Regions 4 and 6

Program Office Involved:     Emergency and Remedial
                             Response Division
MEMORANDUM


SUBJECT:   Results of Assessment of Controls Over Emergency
           Removal Actions at Methyl Parathion Sites
           Report No. E1SFB7-06-0020-7400069

FROM:      Elissa R. Karpf
           Deputy Assistant Inspector General
            for External Audits

TO:        Timothy Fields, Jr.
           Acting Assistant Administrator
             for Solid Waste and Emergency Response

     Attached is our assessment of the controls over disbursements and
other activities related to emergency removal actions at methyl
parathion sites. Our assessment indicates that Agency controls over
several aspects of the removal process could be strengthened with
clarification of existing guidance or with the development of
additional national guidance. The attached discussion focuses on:

      C    the potential for inadequate resources and procedures for
           implementing a new sampling approach,

      C    inconsistencies   in   decisions   to   conduct   cleanups   at
           businesses,

      C    the potential for fraudulent and excessive relocation costs,

      C    inconsistencies   in   documentation    of   personal   property
           records, and

      C    the potential for increased costs and delays in completion
           of residential restorations.
                                  4


     Also included are suggestions that we believe will provide greater
consistency and strengthen the Agency’s controls in future similar
emergency responses. We look forward to receiving written comments
with proposed actions that your office may take in response to our
suggestions within the next 120 days.

     We appreciate the collaborative efforts of the Office of Emergency
and Remedial Response in providing us information and insight to
facilitate our review. During our field visits, we spoke with many
individuals who were very receptive to our observations and who
expended considerable time and effort in protecting the health of
hundreds of families affected by the methyl parathion contamination.
We commend the efforts put forth by the individuals who assisted us.
We believe the way the Agency worked with the Office of Inspector
General staff in discussing the problems and identifying solutions
demonstrates a shared commitment to improve Agency operations and
protect government funds.

     If you or your staff have any questions, please contact Dave
Boyce, Audit Manager in our Dallas office, at (214) 665-6621.

Attachment
                                              ATTACHMENT

                ASSESSMENT OF EMERGENCY REMOVAL
               ACTIONS AT METHYL PARATHION SITES
INTRODUCTION
                    Based on concerns raised by the Environmental
                    Protection Agency’s (Agency) program officials,
                    we conducted an assessment of controls over
                    emergency removal actions at methyl parathion
                    sites. The overall objective of the assessment
                    was to determine the adequacy and appropriateness
                    of Agency policies and procedures to perform
                    emergency removal actions.     In particular, we
                    focused on those policies and procedures which
                    addressed sampling, relocation, decontamination,
                    and restoration.


BACKGROUND
                    Methyl parathion is a highly toxic pesticide
                    registered for use on several agricultural crops
                    and is restricted to outdoor use. This type of
                    pesticide typically affects the capability of the
                    human central nervous system to regulate itself.
                    Exposure, which may occur through contact,
                    inhalation, or ingestion, can cause serious
                    illness and even death. Methyl parathion readily
                    breaks down in the environment through a
                    combination of natural sunlight, water, and
                    biological actions, but does not readily degrade
                    indoors.

                    The Office of Solid Waste and Emergency Response
                    (OSWER) issued Directive 9360.3-12, dated August
                    12, 1993, which provided guidance on the use of
                    authority   under   section   104  (a)   of   the
                    Comprehensive       Environmental      Response,
                    Compensation, and Liability Act (CERCLA), as
                    amended, to conduct indoor response actions such
                    as the methyl parathion emergency.           This
                    directive clarifies that CERCLA section 104
                    authority should be used only in instances of a
                    release or threat of release of a hazardous
                    substance into the environment and only when such
                    release or threat of release poses a hazard to
                    public health or welfare or the environment. A

                                1 Assignment No. E1SFB7-06-0020-7400069
              Assessment of Emergency Removal
            Actions at Methyl Parathion Sites

finding of imminent and substantial endangerment
of a pollutant or contaminant must also exist.

The Agency’s initial involvement with methyl
parathion contamination in residences was in
Lorain County, Ohio, in December 1994.       Ohio
health officials alerted the Agency that hundreds
of residences might have been contaminated with
methyl parathion.    The Agency, using various
resources, temporarily relocated 869 residents,
and decontaminated and restored 233 homes.
Removal actions at the Lorain County site were
completed in February 1996, at a cost of
approximately $18,500,000.

Less than a year later, in November 1996, the
State of Mississippi requested the Agency’s
assistance in responding to a public health
hazard posed by the illegal application of methyl
parathion in homes and businesses in and around
Jackson County, Mississippi.    One month later,
the State of Louisiana requested assistance for
response to methyl parathion contamination in the
New Orleans area. Based on the experiences of
Lorain County, the Agency responded and tested
the extent of contamination, relocated residents,
and decontaminated and restored residences and
some businesses.

In May 1997, the State of Illinois contacted the
Agency requesting assistance for response to
methyl parathion contamination in the Chicago
area. The Agency is in the process of planning
its proposed actions for the Chicago site.

The latest Office of Emergency and Remedial
Response (OERR) Methyl Parathion Response Status
report, dated September 5, 1997, shows costs
obligated for removal actions at each state as
follows:

     Mississippi                      $36,050,000
     Louisiana                   $17,800,000
     Illinois                    $ 5,500,000

In January 1997, Regions 4 and 6 contacted the
Office of Inspector General (OIG) Office of


            2 Assignment No. E1SFB7-06-0020-7400069
              Assessment of Emergency Removal
            Actions at Methyl Parathion Sites

Investigations (OI) regarding allegations of
irregularities in some residents’ relocation
applications in Mississippi and Louisiana.
Through OI’s involvement and discussions with the
Agency, we agreed to assist the Agency by
assessing the adequacy of the policies and
procedures used by the regions throughout the
various aspects of the removal process.

The removal process, which is generally initiated
by calls from individuals to an established
Pesticide Hotline, consists of four phases:

     C    sampling,
     C    resident relocation,
     C    decontamination, and
     C    restoration.

A state agency collects wipe samples from high
contact/high traffic areas in a residence or
business.    Such areas are locations with an
increased probability for repeated and prolonged
human contact with the potentially contaminated
surface. A designated laboratory then analyzes
the samples for methyl parathion. Residents were
originally relocated based on health criteria
developed and used by the Agency in Lorain
County, Ohio. Rapid relocation of residents and
decontamination of the residence occurred if
methyl parathion from a wipe sample equaled or
exceeded a certain level.     The decontamination
and restoration procedures involve the removal of
contaminated food and fabric items; painting of
contaminated    surfaces;    and    removal   and
installation     of     replacement    carpeting,
baseboards,     furnace     filters,    cabinets,
furnishings,    and    non-structural    building
components which remain contaminated.

In May 1997, the Agency changed its criteria for
relocating    residents    and    decontaminating
residences.     The change resulted from a
determination made by the Methyl Parathion Health
Sciences Steering Committee that scientific
relationships between levels of methyl parathion
found in residences and levels found in urine
samples taken from residents were not found to


            3 Assignment No. E1SFB7-06-0020-7400069
              Assessment of Emergency Removal
            Actions at Methyl Parathion Sites

exist in other geographic locations as existed in
Lorain, Ohio. The differences were attributed to
site-specific circumstances, such as spray
technique, house construction, and climate
factors. In the absence of such site-specific
correlations, the steering committee determined
that methyl parathion levels in urine should
become the prime determinant for relocating
residents to decontaminate residences.




            4 Assignment No. E1SFB7-06-0020-7400069
                           Assessment of Emergency Removal
                         Actions at Methyl Parathion Sites


SCOPE AND
METHODOLOGY   Our review focused on the ongoing and proposed
              removal actions at three primary sites: (1) the
              Jackson County, Mississippi site in Region 4;
              (2) the New Orleans, Louisiana site in Region 6;
              and (3) the Chicago, Illinois site in Region 5.
              We coordinated our review with OIG investigators
              already onsite in Mississippi and Louisiana to
              avoid duplication of effort.       We met with
              headquarters program officials in OERR, and
              program officials in Regions 4, 5, and 6. We
              made visits to the Jackson County and New
              Orleans sites to meet with the on-scene
              coordinators    (OSC),     emergency    response
              contractors (ERCS), and representatives from the
              U.S.   Army   Corps    of   Engineers   (Corps).
              Additionally, we met with the Agency for Toxic
              Substances and Disease Registry staff co-located
              with Region 6 and representatives from the
              Mississippi State Department of Health (MSDH),
              the Louisiana Office of Public Health, and the
              Louisiana Department of Agriculture and Forestry
              (LDAF).

              To facilitate our review,           we obtained
              memorandums from the Agency’s Office of General
              Counsel to verify the Agency’s authority to
              conduct the removal actions. Also, we obtained
              a copy of the EPA National Oil and Hazardous
              Substances Pollution Contingency Plan ( NCP);
              the Uniform Relocation Assistance, Real Property
              Regulations for Federal and Federally Assisted
              Programs;   and   EPA  Guidance    on  Temporary
              Relocations During Superfund Removal Actions to
              assess relocation criteria. We reviewed files
              maintained at both the New Orleans and Jackson
              County sites to determine the effectiveness of
              administrative    controls    over    relocation
              benefits, reimbursement of personal property,
              and health effects of the methyl parathion
              spraying.

              This review, like all special reviews, was a
              short term study of Agency activities. It was
              not designed to be a detailed audit. Rather it
              was an information gathering survey that sought

                         5 Assignment No. E1SFB7-06-0020-7400069
                               Assessment of Emergency Removal
                             Actions at Methyl Parathion Sites

                  to assist the Agency by providing an assessment
                  of the adequacy of the policies and procedures
                  being followed for removal actions at methyl
                  parathion sites. Thus, it was more limited in
                  scope than an audit and, as such, did not
                  necessarily encompass all generally accepted
                  government auditing standards. Alternately, we
                  conducted this review in accordance with the
                  provisions of OIG manual chapter 118, Special
                  Assignments.

OBSERVATIONS
AND CONCLUSIONS   Our assessment indicates that the Agency could
                  strengthen controls over several aspects of the
                  emergency removal process with the clarification
                  of existing guidance and the development of
                  additional specific national guidance. The lack
                  of adequate national guidance has resulted in:

                       C    the potential for inadequate resources
                            and procedures for implementing a new
                            sampling approach,

                       C    inconsistencies in decisions to clean
                            up contaminated businesses,

                       C    the potential for fraudulent           and
                            excessive relocation costs,

                       C    inconsistencies in the documentation
                            of personal property items, and

                       C    the potential for increased costs and
                            delays in completion of residential
                            restorations.

                  We discussed these concerns initially with
                  headquarters program officials in OERR, and
                  again during recent task force conference calls.
                  In response, the Agency has issued several new
                  directives that address some of the areas of
                  concern we have raised. However, we believe that
                  further improvements would strengthen Agency
                  controls and further reduce future instances of
                  fraudulent   activities    related   to   methyl
                  parathion cleanups.


                             6 Assignment No. E1SFB7-06-0020-7400069
                                 Assessment of Emergency Removal
                               Actions at Methyl Parathion Sites

IMPLEMENTATION OF   On May 16, 1997, OSWER issued Directive 9285.7-
NEW     TESTING     27 which provides guidance to the regions for
PROCEDURES          implementing a urine sampling protocol to test
                    for excessive levels of methyl parathion in
                    residents’ urine. The intent of the directive
                    was to ensure that the regions applied
                    consistent criteria in deciding what actions to
                    take in response to methyl parathion exposures.

                    In implementing the urine sampling protocol, the
                    Agency did not adequately address:

                         C    resources to collect and analyze the
                              samples,

                         C    resources for subsequent monitoring,
                              and

                         C    procedures    for    disclosure    and
                              notification of changes in residential
                              occupancy.

                    The Agency delegated responsibility for testing
                    methyl parathion levels in residents’ urine to
                    state public health agencies but did not
                    initially ensure that these agencies had
                    adequate resources to collect urine samples and
                    perform subsequent monitoring. OSCs in Regions
                    4 and 5, and representatives from MSDH and LDAF,
                    expressed concerns that the public health
                    services in Louisiana, Mississippi, and Illinois
                    lacked the resources to effectively administer
                    the increased urine sampling and subsequent
                    monitoring.    They expressed further concerns
                    that the Center for Disease Control in Atlanta
                    might lack the capacity to timely test the
                    anticipated number of samples.

                    Additionally, the new protocol did not address
                    the issue of disclosure and notification when
                    changes in residential occupancy occur.    This
                    notification and the associated need for
                    subsequent urine sampling might be critical for
                    new occupants, especially those with small
                    children.    A lack of clear guidance and
                    sufficient resources for sample collection,
                    analysis, and monitoring has the potential for


                               7 Assignment No. E1SFB7-06-0020-7400069
                                  Assessment of Emergency Removal
                                Actions at Methyl Parathion Sites

                     reducing the effectiveness of the program as
                     well as creating increased exposure and adverse
                     health effects.

                     We recently learned that the Agency, as
                     suggested in this assessment, has worked with
                     the appropriate state and local officials to
                     gain the resources needed to meet the demands
                     for urine sampling and analysis. Additionally,
                     the development of a long term monitoring and
                     notification policy is still in progress.

CLEANUP    OF        Prior to May 1997, the Agency had no policy or
CONTAMINATED         guidance for making decisions to clean up
BUSINESSES           businesses contaminated with methyl parathion.
                     Consequently, regions developed inconsistent
                     policies regarding business cleanups. Region 5
                     did not clean up businesses at the first site in
                     Lorain County, Ohio.       Region 4 initiated
                     cleanups    of    24    businesses,    including
                     restaurants, stores, day care centers, and
                     churches.    Region 6 initiated one business
                     cleanup, then discontinued the practice.

                     This lack of consistency not only left the
                     Agency vulnerable to criticism, but also
                     resulted in the use of additional funds and
                     resources for removal actions at sites that are
                     unlikely to cause continuous exposure to methyl
                     parathion. The funds and resources could have
                     otherwise been available for removal actions at
                     higher priority sites with continuous exposure.

                     The recently issued OSWER Directive 9285.7-27A,
                     Cleanup   of   Methyl   Parathion   Contaminated
                     Businesses (undated) provides guidance to the
                     regions in making cleanup decisions regarding
                     businesses contaminated with methyl parathion.
                     The guidance provides that decisions should be
                     based on the urine protocol criteria, especially
                     those with resident population or residential
                     type exposure; i.e., nursing homes, day care
                     centers, or hospitals.     Consideration should
                     also be given to the businesses’ ability to pay.

RELOCATION   COSTS   The Agency was not consistent in its application
                     process for resident relocation eligibility or


                                8 Assignment No. E1SFB7-06-0020-7400069
             Assessment of Emergency Removal
           Actions at Methyl Parathion Sites

subsistence    payments   made   to    relocated
residents. These inconsistencies provided the
potential    for   fraudulent   and    excessive
relocation costs. At both the Jackson County
and New Orleans sites, the Corps, through an
interagency agreement with the Agency, was
responsible for processing applications for
resident relocation and making subsistence
payments.     Corps personnel at each site
established their own application process, as
well as the subsistence rates and other types of
expenses (i.e., laundry, taxis).

Application Process

The Corps at each site set its own application
requirements. The Corps at the Jackson County
site used a detailed application process,
including resident identification and household
size verification.   The Corps in New Orleans
initially   required   no   identification   or
verification from its applicants.

The Corps at the Jackson County site, with
assistance from
Region 4 program officials, developed draft
procedures outlining the application process and
eligibility requirements, including verification
of   residency   and   household   size.      To
substantiate their eligibility, applicants could
submit various documents to verify residency and
household size, including drivers license,
social security number, rental agreements, rent
receipts,   tax   returns,   proof   of   public
assistance, and/or mail.

The Corps in New Orleans initially did not
require any documents to verify residency or
household size. Based on a recommendation made
by OIG OI, the Corps subsequently began
requesting social security and drivers license
numbers from its applicants. However, the Corps
did not verify household size.

Additionally, OI suggested other improvements in
the application process that would help the



           9 Assignment No. E1SFB7-06-0020-7400069
             Assessment of Emergency Removal
           Actions at Methyl Parathion Sites

Agency protect itself against abusers and
fraudulent claims. The improvements included:

     C    a certification and false penalties
          statement;

     C    a    requirement     for  applicant
          identification/verification     for
          release
          of subsistence payments;

     C    a medical release form; and

     C    simpler, separately listed questions
          on the questionnaire regarding source
          and application of methyl parathion.

OI recently learned that Region 5 is currently
using contract services to develop its own
application process for use by the Corps at the
Chicago site. We understand from OI that the
proposed application package does not require
social security or drivers license numbers from
applicants as recommended by OI and implemented
by the Corps in New Orleans. The drafting of an
additional application package by Region 5
appears to be a duplication of effort and an
unnecessary expenditure of resources.          A
standard application package for use by all
regions could have prevented the inconsistencies
and reduced the potential for fraudulent or
excessive claims.

Subsistence Costs

The   Corps   also   independently    determined
subsistence payments at the Jackson County and
New Orleans sites. Corps personnel at each site
used different approaches for determining per
diem and lodging rates.       The rates varied
between sites and were not based on any specific
standard.

The process followed in Jackson County evolved
from the General Services Administration (GSA)-
approved daily subsistence rates to a method
which based subsistence payments on three


           10 Assignment No. E1SFB7-06-0020-7400069
                                 Assessment of Emergency Removal
                               Actions at Methyl Parathion Sites

                    options.    For Option 1, the applicant could
                    elect    to    stay   in   government-furnished
                    apartments, and receive a one-time incidental
                    expense allowance of $200. With Option 2, the
                    applicant made his or her own arrangements and
                    accepted a fixed amount of money based on the
                    average daily cost of a one, two, or three
                    bedroom apartment, and a one-time incidental
                    expense allowance of $200. With Option 3, the
                    applicant made his or her own arrangements and
                    requested reimbursement on an actual basis, not
                    to exceed a set amount per day.

                    The process in New Orleans also evolved from
                    GSA-approved daily subsistence rates. However,
                    the method of calculation was based on the
                    applicant making his or her own arrangements and
                    accepting a fixed amount of $15 per day per
                    household, with no incidental expense allowance.


                    Region 5 is currently determining its own method
                    for calculating subsistence payments.

                    Overall, insufficient resident verification
                    procedures   and   variances   in  subsistence
                    payments, not only leaves the Agency open to
                    criticism, but also results in inequitable and
                    potentially fraudulent payments.

DOCUMENTATION OF    We found inconsistencies in the degree of
PERSONAL PROPERTY   documentation maintained by the regions to
                    identify personal property items. The regions
                    used various contractors or the Corps to
                    appraise and document personal property for
                    removal   and  replacement   purposes.     Each
                    servicing agent developed its own documentation
                    requirements for personal property records.

                    Draft OSWER Publication 9360.3-18, Guidance on
                    Compensation for Property Loss in Removal
                    Actions, dated September 1996, outlines the
                    procedures for compensating for property loss
                    due to hazardous substance release or the
                    resulting response effort.        The guidance
                    requires the OSC to record the condition of any
                    property that potentially could be damaged

                               11 Assignment No. E1SFB7-06-0020-7400069
                                   Assessment of Emergency Removal
                                 Actions at Methyl Parathion Sites

                      during response activities.  Documentation must
                      be in writing, and may be supplemented with
                      photographs and videotapes. This documentation
                      would be used as a basis to determine
                      appropriate compensation after the response was
                      complete.

                      The quality and sufficiency of personal property
                      documentation varied at the different sites.
                      Personal property records maintained at the New
                      Orleans site included a combination of detailed
                      videotapes and photographs (also available on CD
                      ROM).   They also included specific property
                      descriptions   and   detailed    appraisals   on
                      contaminated reimbursable items. In contrast,
                      files maintained at the Jackson County site were
                      not as specific. The files included videotapes
                      and some photographs but included more generic
                      descriptions    and   appraisal     values   for
                      contaminated reimbursable items.

                      The lack of specific detail could expose the
                      Agency to fraudulent claims and additional
                      expenses should residents dispute reimbursements
                      and/or claim items as missing or damaged. At
                      the same time, too much documentation could
                      result in unnecessary expenditures that outweigh
                      the benefit derived.

RESTORATION      OF   Residential restoration at the New Orleans site
I N D I V I D U A L   using Region 6's ERCS contracts proceeded more
RESIDENCES            timely than restoration at the Jackson County
                      site using Region 4's interagency agreement with
                      the Corps. For comparative purposes, the latest
                      OERR Methyl Parathion Response Status report,
                      dated July 25, 1997, stated that of the 430
                      households requiring relocation in Mississippi,
                      only 75 cleanup/restorations were completed.
                      Louisiana, with cleanups initiated approximately
                      1 month after the start of cleanups in
                      Mississippi, reported 187 households requiring
                      relocation,   with   182    cleanup/restorations
                      completed.

                      The delays encountered in Jackson County were
                      primarily attributed to the lengthy procurement
                      process followed by the Corps. Initially, the


                                 12 Assignment No. E1SFB7-06-0020-7400069
                           Assessment of Emergency Removal
                         Actions at Methyl Parathion Sites

              Corps issued individual purchase orders for the
              restoration of each residence. To alleviate the
              delays and backlog, the Corps recently issued an
              indefinite delivery/indefinite quantity contract
              which provided for the issuance of work orders
              to three contractors to cover the restoration of
              numerous residences.   In the interim, Region 4
              also issued work orders under its ERCS contracts
              to assist with the restoration work in Jackson
              County.

              Region 5, also proposing to use the Corps for
              restoration at the Chicago site, has expressed
              concerns   regarding   funding  and   capacity
              available under its ERCS contracts should the
              Region need to obtain additional restoration
              support beyond the Corps.

SUMMARY
              The lack of clear and concise national guidance
              resulted in regions developing their own
              procedures.    Regional responses could have
              proceeded more efficiently and with less risk to
              the government, had the Agency developed clear
              and concise national guidance.

SUGGESTIONS
              We   suggest     that  the  Acting         Assistant
              Administrator   for Solid Waste and        Emergency
              Response:

              1.   Modify existing guidance and develop new
                   guidance, as required, to address emergency
                   removal actions at methyl parathion sites
                   that at a minimum:

                   a.   Clarifies important factors related to
                        its protocol for testing levels of
                        methyl parathion in residents’ urine,
                        including resources for urine sampling
                        and monitoring, and disclosure and
                        notification requirements for resident
                        occupancy changes.

                   b.   Outlines   criteria    for   business
                        cleanups, including specific eligible
                        expenditures.

                         13 Assignment No. E1SFB7-06-0020-7400069
             Assessment of Emergency Removal
           Actions at Methyl Parathion Sites

     c.   Outlines     applicant     eligibility
          procedures, including verification of
          residency and household size, as well
          as    a   standard    for    computing
          subsistence payments.      The Agency
          should consider providing standard
          application forms for use by the Corps
          or other servicing agents.

     d.   Defines a standard for sufficient
          documentation of personal property
          items.

2.   Encourage Region 5 to work with the Office
     of Acquisition Management to explore other
     contracting alternatives to obtain services
     in a timely manner, if delays are
     encountered and additional resources from
     the ERCS contracts are required.




          14 Assignment No. E1SFB7-06-0020-7400069
                                                 Assessment of Emergency Removal
                                               Actions at Methyl Parathion Sites

                                   REPORT DISTRIBUTION


Office of Inspector General
       Headquarters
            Inspector General (2410)
            Deputy Assistant Inspector General for Internal Audits (2421)
            Deputy Assistant Inspector General for External Audits (2421)
            Headquarters Audit Liaison(2421)

       Divisional Office
          Divisional Inspectors General for Audit

Headquarters Office
      Assistant Administrator for Solid Waste and Emergency Response (5101)
      Director, Office of Emergency and Remedial Response (5201G)
      Deputy Director, Office of Emergency and Remedial Response (5201G)
      Audit Liaison, Office of Solid Waste and Emergency Response (5101)
      Agency Follow-up Official (2710)
      Agency Follow-up Coordinator (2724)
      Accountability Staff Director (2724)
      Assistant Administrator for Administration and Resources Management (3101)
      Associate Administrator for Regional Operations and State/Local
          Relations (1501)
      Associate Administrator for Communications, Education,
          and Public Affairs (1701)
      Director, Grants Administration Division (3903R)
      Director, Office of Policy and Resources Management, (3102)
      Director, Office of Acquisition Management (3801R)
      Special Assistant to the Deputy Administrator for
          Administrative Issues (1103)

Regional Offices
      Regional Administrators
      Directors, Superfund Division
      Audit Follow-up Coordinators




                                              15 Assignment No. E1SFB7-06-0020-7400069
                                                   Assessment of Emergency Removal
                                                 Actions at Methyl Parathion Sites


Other
        Office of Community Health Services
        Mississippi State Department of Health
        P.O. Box 1700
        Jackson, MS 39215-1700

        Mobile District, Corps of Engineers
        P.O. Box 2288
        Mobile, AL 36628-0001

        Pesticide and Environmental Protection
        Agriculture and Environmental Services Office
        Louisiana Department of Agriculture and Forestry
        P.O. Box 3596
        Baton Rouge, LA 70821-3596

        Real Estate Division
        New Orleans District, Corps of Engineers
        P.O. Box 60267
        New Orleans, LA 70160-0267




                                                 16 Assignment No. E1SFB7-06-0020-7400069
